EXHIBIT A

case 17-3823, Document 164, 04/22/2019, 2545104, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City ofNew York, on the
22nd day of April, two thousand nineteen.

Susan Levy,
Plaintiff- Appellant,

ORDER
Docket No: 17-3823

V.

BASF Metals Limited, BASF Corporation, Goldman
Sachs International, Goldman Sachs Group, Inc.,
Goldman Sachs & Co., Goldman Sachs Execution &
Clearing, L.P., ICBC Standard Bank PLC, UBS AG, UBS
Securities LLC, HSBC Bank USA, N.A.,London
Platinum and Palladium Fixing Company Limited,
Defendants - Appellees.

Appellant, Susan Levy, filed a petition for panel rehearing, or, in the alternative, for
rehearing en bane. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en bane.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

EXHIBIT B

Levy v. BASF Metals Limited, 917 F.3d 106 (2019)

Cases that cite this headnote

917 F.3d 106
United States Court of Appeals, Second Circuit.

(2)
Susan LEVY, Plaintiff-Appellant,

v.

Limitation of Actions
i? In general;what constitutes discovery
Federal courts generally apply a discovery
accrual rule when a statute is silent on the
issue.

BASF METALS LIMITED, BASF Corporation,
Goldman Sachs International, Goldman Sachs
Group, Inc., Goldman Sachs & Co., Goldman

1 Cases that cite this headnote

Sachs Execution & Clearing, L.P., ICBC Standard
Bank PLC, UBS AG, UBS Securities LLC, HSBC
Bank USA, N.A., London Platinum and Palladium
Fixing Company Limited, Defendants-Appellees.

(3)

1

Limitation of Actions
~ In general;what constitutes discovery
In applying the discovery accrual rule, it is
discovery of the injury, not discovery of the
other elements of a claim, that starts the clock.

Docket No. 17-3823

I
Argued: October 18, 2018

1 Cases that cite this headnote

I
Decided: February 28, 2019
Synopsis
Background: Investor in platinum futures brought action
against various investment bankers, alleging claims
including under the Commodities Exchange Act (CEA)
related to alleged manipulation of the platinum futures
market. The United States District Court for the Southern
District ofNew York, Gregory H. Woods, District Judge,
granted bankers' motion to dismiss. Investor appealed.

[Holding:) The Court of Appeals held that CEA claims
accrued, and CEA's two-year limitations period began
to run, when investor had actual knowledge of a CEA
injury due to crash of platinum futures market that caused
investor to lose her entire investment.

[4)

Limitation of Actions
<&= Securities;corporations
Commodity Exchange Act (CEA) claims
against investment bankers by investor in
platinum futures accrued, and CEA's twoyear limitations period began to run, when
investor had actual knowledge of a CEA
injury due to crash of platinum futures
market that caused investor to lose her
entire investment, rather than when investor
discovered any alleged manipulation of the
platinum futures market or the identity of
the investment bankers involved in the alleged
scheme. Commodity Exchange Act §§ 22, 22,
7 U.S.C.A. §§ 25(a)(l), 25(c).
Cases that cite this headnote

Affirmed.

West Headnotes (4)

Appeal from the United States District Court for the
Southern District of New York (Gregory H. Woods, J.)
Attorneys and Law Firms

[1)

Federal Courts
~ Limitations and laches
Appellate courts review de novo a district
court's interpretation and application of a
statute of limitations.

Wes'fLAW

@

SUSAN LEVY, pro se, New York, N.Y., PlaintiffAppellant.
MICHAEL F. WILLIAMS, Kirkland & Ellis LLP
(Peter A. Farrell, on the brief), Washington, D.C., for

2019 Thomson Reuters . No claim to original U.S. Government Works.

Levy v. BASF Metals Limited, 917 F.3d 106 (2019)

Defendants-Appellees BASF Metals Limited and BASF
Corporation.
DAMIEN J. MARSHALL, Boies Schiller Flexner LLP
(Leigh M. Nathanson, Laura C. Harris, on the brief), New
York, N .Y., for Defendant-Appellee HSBC Bank USA,
N.A.
STEPHEN EHRENBERG, Sullivan & Cromwell LLP,
New York, N.Y., for Defendants-Appellees Goldman
Sachs International, The Goldman Sachs Group, Inc.,
and Goldman Sachs & Co. LLC f/k/a Goldman, Sachs &
Co.
ROBERT G . HOUCK, Clifford Chance US LLP, New
York, N .Y., for Defendant-Appellee ICBC Standard
Bank PLC.
ERIC J. STOCK, Gibson, Dunn & Crutcher LLP (Mark
A . Kirsch, D . Jarrett Arp, Melanie L. Katsur, Indraneel
Sur, on the brief), New York, N .Y., for DefendantsAppellees UBS AG and UBS Securities LLC.
ETHAN E. LITWIN, Dechert LLP (Morgan J . Feder, on
the brief), New York, N .Y., for Defendant-Appellee The
London Platinum and Palladium Fixing Company Ltd.
Before: WINTER and POOLER, Circuit Judges, and
ABRAMS, District Judge. 2
Opinion

PER CURIAM:
*107 Appellant Susan Levy, an attorney proceeding
pro se, brought this lawsuit in an effort to be made
whole for her 2008 losses in the platinum futures market.
She alleges, in sum, that BASF Metals Limited, BASF
Corporation, Goldman Sachs International, Goldman
Sachs Group, Inc., Goldman Sachs & Co., Goldman
Sachs Execution & Clearing, LP, HSBC Bank USA, NA,
ICBC Standard Bank PLC, UBS AG, UBS Securities
LLC, London Platinum and Palladium Fixing Company
Ltd., and twenty unnamed " John Does" conspired to
manipulate the New York Mercantile Exchange platinum
futures contract market in violation of the Commodities
Exchange Act ("CEA"), 7 U .S.C. § 1 et seq., the Racketeer
Influenced and Corrupt Organizations Act (" RICO"), 18
U .S.C. § 1961 et seq., the Sherman Act, 15 U.S.C. §§ 1,
2 and New York law. The district court (Gregory H.
'
Woods, J .) dismissed her federal claims as time barred and

declined to exercise supplemental jurisdiction over Levy's
state law claims. Levy v. BASE Me tals Ltd., 1: 15-cv-7317GHW, 201 7 WL 2533501, at *9 (S.D.N.Y. June 9, 201 7).
We affirm the bulk of that decision in a summary order
we publish simultaneously with this opinion. We write
separately to address Levy's CEA claims and hold that
they accrued when she discovered her CEA injury in 2008,
not when she discovered the alleged manipulation scheme
or the identity of the defendants.

BACKGROUND
Levy began trading in the platinum futures market in 2008
at what she alleges were artificially inflated prices. Based
on her review of the platinum market, she took a long
position with the expectation that platinum prices would
soar even higher than market predictions. However, on
August 15, 2008, the platinum market crashed, causing
Levy to lose her entire investment.
Levy filed suit in April of 2012 against a different set
of defendants that she alleged manipulated the platinum
market (and, by extension, the platinum futures market)
by *108 engaging in so-called " banging the close"
transactions. She claimed that the defendants in that case
manipulated the value of platinum futures contracts by
placing large platinum orders a t the end of, or immediately
after, the trading day, resulting in increased settlement
prices of platinum futures contracts. In other words,
Levy alleged that the defendants in her first lawsuit
engaged in a " pump-and-dump" scheme that manipulated
the value of platinum futures in violation of the CEA,
RICO, the Sherman Act, and New York law. That case
was transferred from the Eastern District of New York
to the Southern District of New York in 2013 so it
could be before the same district court judge presiding
over a related class action lawsuit. See generally Levy v.
Welsh, No. 12-CV-2056 (DLI)(VMS), 2013 WL 1149152
(E.D.N.Y. Mar. 19, 201 3). Levy settled the Welsh lawsuit
in 2014, but the settlement did not provide Levy with a
complete recovery.
Levy filed the present action on September 16, 2015,
after she received in the fall of 2014 a copy of a class
action complaint containing similar allegations to the
ones she now asserts. See generally In re Platinum and
Palladium Antitrust Litig., 1:14-cv-9391-GHW, 201 7 WL
1169626 (S.D.N .Y. Mar. 28, 201 7). In this suit, Levy

WESTLAW © 2019 Thomso n Reu ters. No claim to original U.S. Government Works.

2

Levy v. BASF Metals Limited, 917 F.3d 106 (2019)

claims, in sum, that Defendants-Appellees conspired to fix
the price of platinum-and thus manipulate the platinum
futures market-in a four-step manipulation process
that involved exchanging confidential information during
private conference calls, in violation of the CEA, RICO,
the Sherman Act, and New York law. She alleges that
the 2014 class action complaint first apprised her of this
conduct, as well as the identities of some of the parties
involved.
Levy filed an amended complaint on January 14,2016, and
a second amended complaint on April4, 2016. On August
31, 2016, Defendants-Appellees moved to dismiss Levy's
second amended complaint. The district court granted
the motion, finding that Levy's federal claims were time
barred, and declined to exercise supplemental jurisdiction
over her remaining state law claims. Levy v. BASF Metals
Ltd. , 2017 WL 2533501, at *9.

DISCUSSION
(1) We review de novo "[a] district court's interpretation
and application of a statute of limitations." Muto v. CBS
Corp., 668 F.3d 53, 56 (2d Cir. 20 12).
(2) (3) (4] "Federal courts ... generally apply a discovery
accrual rule when a statute is silent on the issue .. .. "
Rotella v. Wood, 528 U .S. 549, 555, 120 S.Ct. 1075, 145
L.Ed.2d 1047 (2000); see also Koch v. Christie's Jnt'l PLC,
699 F.3d 141, 148 (2d Cir. 2012). In applying this rule,
it is "discovery of the injury, not discovery of the other
elements of a claim," that "starts the clock." Rotella, 528
U .S. at 555, 120 S.Ct. 1075. We have not yet applied
this general rule to CEA claims. We do so now and hold
that Levy's CEA claims accrued when she discovered her
CEA injury. This happened when she suffered her losses in
2008. Thus, the CEA's two-year limitations period expired
before she initiated the present suit in September 2015. 7
U .S.C. § 25(c).
Levy contends that the district court mistakenly conflated
the date she suffered her losses with the date her
CEA claims accrued. The relevant inquiry, however,
is not whether Levy had discovered the identity of
the defendants or whether she had discovered the
manipulation scheme she alleges in her complaint. Rather,
the question is when Levy discovered her CEA injurythat is, a loss that was the result of a CEA violation. See 7

U.S.C. § 25(a)(l) (providing a cause of action for someone
who suffers "actual damages" "caused by" *109 a CEA
violation); Cancer Found., Inc. v. Cerberus Capital Mgmt.,
LP, 559 F.3d 671, 674 (7th Cir. 2009) ("A plaintiff does
not need to know that his injury is actionable to trigger
the statute of limitations-the focus is on the discovery
of the harm itself, not the discovery of the elements that
make up a claim."); cf Kronisch v. United States, 150 F.3d
112, 121 (2d Cir. 1998) (" [A] claim will accrue when the
plaintiff knows, or should know, enough of the critical
facts of injury and causation to protect himself by seeking
legal advice." (internal quotation marks omitted)).
Here, Levy alleges that, by August of 2008, "prices
started to fall for no apparent reason and without any
fundamental reason." App'x at 260-61 ~ 41 7. And, by the
end of 2008 "the market price had dropped by over 50%,"
which Levy describes as "an extraordinary, unprecedented
and unjustified sudden collapse." App'x at 262 ~ 423.
Levy further alleges that there was "no explanation for
this sudden drop in price, other than market distortion
due to manipulation." App'x 261 ~ 419. In light of these
allegations, we have little difficulty concluding that Levy
discovered her CEA injury in 2008. Once Levy was aware
of this injury, the CEA gave her two years to ascertain the
facts necessary to bring her suit. 7 U .S.C. § 25(c).
Levy primarily argues that she was not on inquiry notice
of her present CEA claims until 2014 when a group of
investors filed a class action lawsuit against Appellees. See
generally In re Platinum and Palladium Antitrust Litig.,
2017 WL 1169626. It is true that we have held that where
" the circumstances known to" a plaintiff, "as alleged in
the complaint, were such as to suggest to a person of
ordinary intelligence" that she has been defrauded, "a
duty of inquiry" may arise that commences the CEA's
two-year limitations period. Benfield v. Mocatta Metals
Corp., 26 F.3d 19, 22 (2d Cir. 1994); see also id. at
23 (finding constructive knowledge where the loss of an
entire investment within a four-month period "should
have caused eyebrows to raise" and imposed a "duty of
inquiry that would ... have disclosed the nature and extent
of' the fraud). However, this is not an inquiry notice case.
The district court held, and we now hold, that Levy had
actual knowledge of her CEA injury in 2008. Levy v. BASF
Metals Ltd., 2017 WL 2533501 , at *5. That knowledge of
her CEA injury "start[ed] the clock," irrespective of when
she discovered the additional information necessary for

Wf'S.fLAW @ 20 19 Thomson Reuters. No claim to original U .S. Government Works.

3

Levy v. BASF Metals Limited, 917 F.3d 106 (2019)

her to bring her suit. See Rotella, 528 U.S. at 555, 120 S.Ct.
1075.

opinion, we AFFIRM the district court's dismissal of this
action.

All Citations
CONCLUSION

917 F.3d 106

For the foregoing reasons, and the reasons stated in
the summary order we publish simultaneously with this

Footnotes

1

The Clerk of the Court is directed to amend the caption as above.

2

Judge Ronnie Abrams, United States District Court for the Southern District of New York, sitting by designation.

End of Document

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

WESTLAW © 20 19 Thomson Reuters. No claim to original U .S. Government Works .

4

EXHIBIT C

rft-l.l.

Case 17-3823, Document 148, 02/28/2019, 2507267, Pagel of 4

17-3823-cv
Levy v. BASF Metals, Ltd.

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED
BY FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT'S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE
NOTATION "SUMMARY ORDER"). A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY
OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City ofNew York on the
28th day of February, two thousand nineteen.
Present:

RALPH K. WINTER,
ROSEMARY S. POOLER,
Circuit Judges.
RONNIE ABRAMS, I
District Judge.

SUSAN LEVY,

Plaintiff-Appellant,
17-3823-cv

v.
BASF METALS LIMITED, BASF CORPORATION,
GOLDMAN SACHS INTERNATIONAL, GOLDMAN
SACHS GROUP, INC., GOLDMAN SACHS & CO.,
GOLDMAN SACHS EXECUTION & CLEARING, L.P.,
ICBC STANDARD BANK PLC, UBS AG,
UBS SECURITIES LLC, HSBC BANK USA, N.A.,
LONDON PLATINUM AND PALLADIUM FIXING
COMPANY LIMITED,

Defendants-Appellees.2
Judge Ronnie Abrams, United States District Court for the Southern District of New York,
sitting by designation.
I

2

The Clerk of the Court is directed to amend the caption as above.

J.Clr.-.LL.

Case 17-3823, Document 148, 02/28/2019, 2507267, Page2 of 4

Appearing for Appellant:

Susan Levy, prose, New York, N.Y.

Appearing for Appellees:

Michael F. Williams, Kirkland & Ellis LLP (Peter A. Farrell, on
the brief), Washington, D.C.,for BASF Metals Limited and BASF
Corporation;
Damien J. Marshall, Boies Schiller Flexner LLP (Leigh M.
Nathanson, Laura C. Harris, on the brief), New York, N.Y.,for
HSBC Bank USA, NA.;
Stephen Ehrenberg, Sullivan & Cromwell LLP, New York, N.Y.,
for Goldman Sachs International, The Goldman Sachs Group, Inc.,
and Goldman Sachs & Co. LLCflk/a Goldman, Sachs & Co.;
Robert G. Houck, Clifford Chance US LLP, New York, N.Y.,for
ICBC Standard Bank PLC;
Eric J. Stock, Gibson, Dunn & Crutcher LLP (Mark A. Kirsch, D.
Jarrett Arp, Melanie L. Katsur, Indraneel Sur, on the brief>, New
York, N.Y., for UBS AG and UBS Securities LLC;
Ethan E. Litwin, Dechert LLP (Morgan J. Feder, on the brief),
New York, N.Y.,for The London Platinum and Palladium Fixing
Company Ltd.

Appeal from the United States District Court for the Southern District of New York (Woods, J. ).
ON CONSIDERATION WHEREOF, IT IS HEREBY ORDERED, ADJUDGED,
AND DECREED that the judgment of said District Court be and it hereby is AFFIRMED.

Appellant Susan Levy, an attorney proceeding prose, appeals from the October 19,2017,
judgment of the United States District Court for the Southern District ofNew York (Woods, J.),
dismissing her second amended complaint as time barred and denying leave to amend. We
assume the parties' familiarity with the underlying facts, procedural history, and specification of
issues for review.
We review the district court's "interpretation and application of a statute of limitations"
de novo. City ofPontiac Gen. Emps. 'Ret. Sys. v. MBIA, Inc., 637 F.3d 169, 173 (2d Cir. 2011).
We review the district court's denial of equitable tolling and leave to amend, as well as its
discovery orders, for abuse of discretion. McCarthy v. Dun & Bradstreet Corp., 482 F.3d 184,
200 (2d Cir. 2007) (leave to amend); Torres v. Barnhart, 417 F.3d 276,279 (2d Cir. 2005)
(equitable tolling); DG Creditor Corp. v. Dabah, 151 F.3d 75, 79 (2d Cir. 1998) (discovery
orders).

2

.I:".A.-1.:)

Case 17-3823, Document 148, 02/28/2019, 2507267, Page3 of 4

Levy first challenges the dismissal of her claims as time barred. Levy's second amended
complaint asserted claims under the Commodities and Exchange Act ("CEA"),3 Racketeer
Influenced and Corrupt Organizations Act ("RICO"), and the Sherman Act. "RICO claims are
subject to a four-year statute oflimitations," which begins to run "upon the discovery of the
injury." Koch v. Christie's lnt'l PLC, 699 F.3d 141, 148, 150 (2d Cir. 2012). Likewise, claims
under the Sherman Act "shall be forever barred unless commenced within four years after the
cause of action accrued." 15 U.S.C. § 15b. A cause of action under the antitrust laws accrues
"when a defendant commits an act that injures a plaintiff's business." Zenith Radio Corp. v.
Hazeltine Research, Inc., 401 U.S. 321,338 (1971); see also id. at 339 ("[I]fa plaintiff feels the
adverse impact of an antitrust conspiracy on a particular date, a cause of action immediately
accrues to him to recover all damages incurred by that date and all provable damages that will
flow in the future from the acts of the conspirators on that date."). We agree with the district
court that the statute of limitations for Levy' s RICO and Sherman Act claims began to run in
2008. Levy had actual notice of her injuries in 2008 when she was forced to pay a margin call
and lost her entire investment. Therefore, Levy's complaint, which she did not file until2015,
was not timely.
The district court did not abuse its discretion by denying Levy the benefit of equitable
tolling. As the district court explained, equitable tolling applies only in "rare and exceptional
circumstance[s]" where (I) a plaintiff is "prevented" from filing her complaint in a timely
.m anner and (2) a plaintiffhas "acted with reasonable diligence throughout the period [s]he seeks
to toll." Smith v. McGinnis, 208 F.3d 13, 17 (2d Cir. 2000) (internal quotation marks omitted);
see also Johnson v. Nyack Hosp., 86 F.3d 8, 12 (2d Cir. 1996) (observing that equitable tolling is
appropriate when a plaintiff "has been prevented in some extraordinary way from exercising
[her] rights" (internal quotation marks omitted)). The district court concluded that Levy's
previous complaint, which she filed in 2012 asserting various claims based on the same financial
losses at issue here, demonstrated that she was aware that she had been injured and that she was
capable of pursuing her legal remedies. We agree with its analysis.
Nor can we say that the district court abused its discretion by denying Levy leave to
amend her complaint. Indeed, Levy, an attorney, had already amended her complaint twice.
Moreover, as explained above, Levy's claims were time barred. Under these circumstances, the
district court did not abuse its discretion by concluding that any further amendment would be
futile. See Grace v. Rosenstock, 228 F.3d 40, 53 (2d Cir. 2000) ("Amendment would likely be
futile if, for example, the claims the plaintiff sought to add would be barred by the applicable
statute of limitations.").
Finally, Levy argues that the district court abused its direction by staying discovery while
the defendants' motions to dismiss were pending. District courts have "broad discretion to direct
and manage the pre-trial discovery process." Wills v. Amerada Hess Corp. , 379 F.3d 32,41 (2d
Cir. 2004). Federal Rule of Civil Procedure 26(c)(l) allows district courts to issue protective
orders "to protect a party or person from ... undue burden or expense." The district court cited
appropriate factors-undue burden and expense-in granting the stay of discovery. We cannot
say that this determination was an abuse of discretion.
We address Levy's CEA claims in a separate opinion, which we issue simultaneously with this
summary order.
3

3

Case 17-3823, Document 148, 02/28/2019,2507267, Page4 of 4

We have considered the remainder of Levy's arguments and find them to be without
merit. Accordingly, the judgment of the district court hereby is AFFIRMED.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

4

Levy v. BASF Metals Limited, 755 Fed.Appx. 29 {2018)

755 Fed.Appx. 29 (Mem)
This case was not selected for
publication in Weses Federal Reporter.
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY
1, 2007, IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE
32.1 AND THIS COURT'S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A
DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX
ORAN ELECTRONIC DATABASE (WITH THE
NOTATION "SUMMARY ORDER"). A PARTY CITING
A SUMMARY ORDER MUST SERVE A COPY OF IT
ON ANY PARTY NOT REPRESENTED BY COUNSEL.
United States Court of Appeals, Second Circuit.
Susan LEVY, Plaintiff-Appellant,
V.

BASF METALS LIMITED, BASF Corporation,
Goldman Sachs International, Goldman Sachs
Group, Inc., Goldman Sachs & Co., Goldman
Sachs Execution & Clearing, L.P., ICBC Standard
Bank PLC, UBS AG, UBS Securities LLC, HSBC
Bank USA, N.A., London Platinum and Palladium
Fixing Company Limited, Defendants-Appellees. 1
17-3823-cv

I
February 28, 2018
Appeal from the United States District Court for the
Southern District of New York (Woods, J.) .
ON CONSIDERATION WHEREOF, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment of said District Court be and it hereby is
AFFIRMED.

M . Nathanson, Laura C. Harris, on the brief), New York,
N .Y., for HSBC Bank USA, N .A.; Stephen Ehrenberg,
Sullivan & Cromwell LLP, New York, N.Y., for Goldman
Sachs International, The Goldman Sachs Group, Inc.,
and Goldman Sachs & Co. LLC f/k/a Goldman, Sachs &
Co.; Robert G. Houck, Clifford Chance US LLP, New
York, N.Y., for ICBC Standard Bank PLC; Eric J. Stock,
Gibson, Dunn & Crutcher LLP (Mark A. Kirsch, D.
Jarrett Arp, Melanie L. Katsur, Indraneel Sur, on the
brief), New York, N .Y., for UBS AG and UBS Securities
LLC; Ethan E . Litwin, Dechert LLP (Morgan J. Feder,
on the brief), New York, N.Y., for The London Platinum
and Palladium Fixing Company Ltd .
Present:

RALPH

K.

WINTER,

ROSEMARY

POOLER, Circuit Judges. RONNIE
District Judge.

S.

ABRAMS, 2

SUMMARY ORDER
Appellant Susan Levy, an attorney proceeding pro se,
appeals from the October 19, 2017, judgment of the
United States District Court for the Southern District of
New York (Woods, 1.), dismissing her second amended
complaint as time barred and denying leave to amend. We
assume *30 the parties' familiarity with the underlying
facts, procedural history, and specification of issues for
review.
We review the district court's "interpretation and
application of a statute of limitations" de novo. City of
Pontiac Gen. Emps.' Ret. Sys. v. MBIA, Inc., 637 F.3d 169,
173 (2d Cir. 2011). We review the district court's denial
of equitable tolling and leave to amend, as well as its
discovery orders, for abuse of discretion. McCarthy v. Dun
& Bradstreet Corp., 482 F .3d 184, 200 (2d Cir. 2007) (leave
to amend); Torres v. Barnhart, 417 F.3d 276, 279 (2d Cir.
2005) (equitable tolling); DG Creditor Corp. v. Dabah, 151
F .3d 75, 79 (2d Cir. 1998) (discovery orders).

Attorneys and Law Firms

Levy first challenges the dismissal of her claims as time
barred. Levy's second amended complaint asserted claims

Appearing for Appellant: Susan Levy, prose, New York,
N .Y.

under the Commodities and Exchange Act (''CEA"), 3
Racketeer Influenced and Corrupt Organizations Act
("RICO"), and the Sherman Act. "RICO claims are
subject to a four-year statute of limitations," which
begins to run "upon the discovery of the injury." Koch
v. Christie's Int'l PLC, 699 F.3d 141 , 148, 150 (2d Cir.

Appearing for Appellees: Michael F. Williams, Kirkland
& Ellis LLP (Peter A. Farrell, on the brief), Washington,
D.C., for BASF Metals Limited and BASF Corporation;
Damien J. Marshall, Boies Schiller Flexner LLP (Leigh

WE:'§TLP.\'\,t © 201 9 Thomson Reute rs. No claim to orioi nal U.S. Governm ent Works .

Levy v. BASF Metals Limited, 755 Fed.Appx. 29 (2018)

2012). Likewise, claims under the Sherman Act "shall be
forever barred unless commenced within four years after
the cause of action accrued." 15 U.S.C. § 15b. A cause of
action under the antitrust laws accrues "when a defendant
commits an act that injures a plaintiffs business." Zenith
Radio Corp. v. Hazeltine Research, Inc., 401 U.S. 321,338,
91 S.Ct. 795, 28 L.Ed.2d 77 (1971); see also id. at 339,
91 S.Ct. 795 ("[I]f a plaintiff feels the adverse impact of
an antitrust conspiracy on a particular date, a cause of
action immediately accrues to him to recover all damages
incurred by that date and all provable damages that will
flow in the future from the acts of the conspirators on that
date."). We agree with the district court that the statute
of limitations for Levy's RICO and Sherman Act claims
began to run in 2008. Levy had actual notice of her injuries
in 2008 when she was forced to pay a margin call and lost
her entire investment. Therefore, Levy's complaint, which
she did not file until2015, was not timely.
The district court did not abuse its discretion by denying
Levy the benefit of equitable tolling. As the district
court explained, equitable tolling applies only in "rare
and exceptional circumstance[s)" where (1) a plaintiff
is "prevented" from filing her complaint in a timely
manner and (2) a plaintiff has "acted with reasonable
diligence throughout the period [s]he seeks to toll." Smith
v. McGinnis, 208 F.3d 13, 17 (2d Cir. 2000) (internal
quotation marks omitted); see also Johnson v. Nyack
Hosp., 86 F.3d 8, 12 (2d Cir. 1996) (observing that
equitable tolling is appropriate when a plaintiff "has been
prevented in some extraordinary way from exercising [her]
rights" (internal quotation marks omitted) ). The district
court concluded that Levy's previous complaint, which
she filed in 2012 asserting various claims based on the
same financial losses at issue here, demonstrated that she
was aware that she had been injured and that she was

capable of pursuing her legal remedies. We agree with its
analysis.
Nor can we say that the district court abused its
discretion by denying Levy leave to amend her complaint.
Indeed, Levy, an attorney, had already amended *31 her
complaint twice. Moreover, as explained above, Levy's
claims were time barred. Under these circumstances, the
district court did not abuse its discretion by concluding
that any further amendment would be futile. See Grace v.
Rosenstock, 228 F.3d 40, 53 (2d Cir. 2000) ("Amendment
would likely be futile if, for example, the claims the
plaintiff sought to add would be barred by the applicable
statute of limitations.").
Finally, Levy argues that the district court abused its
direction by staying discovery while the defendants'
motions to dismiss were pending. District courts have
"broad discretion to direct and manage the pre-trial
discovery process." Wills v. Amerada Hess Corp., 379 F .3d
32, 41 (2d Cir. 2004). Federal Rule of Civil Procedure
26(c)(l) allows district courts to issue protective orders
"to protect a party or person from ... undue burden
or expense." The district court cited appropriate factors
-undue burden and expense-in granting the stay of
discovery. We cannot say that this determination was an
abuse of discretion.
We have considered the remainder of Levy's arguments
and find them to be without merit. Accordingly, the
judgment of the district court hereby is AFFIRMED.

All Citations

755 Fed.Appx. 29 (Mem)

Footnotes

1
2
3

The Clerk of the Court is directed to amend the caption as above.
Judge Ronnie Abrams, United States District Court for the Southern District of New York, sitting by designation.
We address Levy's CEA claims in a separate opinion, which we issue simultaneously with this summary order.

End of Document

V'JESrU~W

© 2019 Thomson Reuters. No claim to original U. S. Government Works.

@ 20'i 9 Thomson Reuters . No claim to original U.S . Government Works.

2

CERTIFICATE OF SERVICE
I, SUSAN J. LEVY, being an attorney-at-law duly admitted to the
Supreme Court of the United States HEREBY CERTIFY that copies of the Application
for Extension of Time to File Petition for Writ of Certiorari and Exhibits for the
Plaintiff-Applicant have this day of July 3, 2019 been sent by first class mail and byemail delivery to counsel for Defendants-Respondents at the following addresses:

Stephen Ehrenberg
Sullivan & Cromwell LLP
125 Broad Street
New York, New York 10004
(212) 558-4000
ehrenbergs@sullcrom.com

David J. Arp
Melanie L. Katsur
Gibson, Dunn & Crutcher LLP
1050 Connecticut Avenue, NW
Washington, DC 20036
(202) 955-8500
Mkatsur@gibsondunn.com
Darp@gibsondunn.com

Attorneys for Defendant-s Appellees
Goldman Sachs International,
Goldman Sachs Group, Inc.
Goldman Sachs & Co. LLC f/kla
Goldman Sachs & Co.

Eric J. Stock
lndraneel Sur
Gibson, Dunn & Crutcher, LLP
200 Park Avenue
New York, New York 10166
(212) 351-4000
Attorneys for DefendantsAppellees UBS AG and UBS
Securities LLC
estock@gibsondunn.com
isur@gibsondunn.com

Robert G. Houck
Clifford Chance US LLP
31 West 52"d Street
New York, New York 10019
(212) 878-8000
robert.houck@cliffordchance.com
Attorneys for Defendant-Appellee
ICBC Standard Bank PLC

Michael F. Williams
Peter A. Farrell
Kirkland & Ellis LLP
655 15th Street, NW, Ste 1200
Washington, DC 20005
(202) 879-5000
michael.williams@kirkland.co

Damien J. Marshall
Leigh Nathanson
Boies Schiller Flexner LLP
575 Lexington Avenue
New York, New York 10022
(212) 446-2300
dmarshall@bsfllp. com
nahanson@bsflip.com
Attorneys for Defendant-Appellee
Appellees
HSBC Bank USA, N.A.

Attorneys for DefendantBASF Metal Limited and
BASF Metals Corporation

1

Morgan J. Feder
Dechert LLP
1095 Avenue of the Americas
271h Floor
New York, New York 10036
(212) 698-3500
morgan.feder@dechert.com
Attorneys for Defendant-Appellee
The London Platinum and Palladium
Fixing Company Limited

Dated : July 3, 2019

.~~d-~

Susan J. Levy, Esq.

2

